HHS/OIG-Audit--"Implementation of Medicare's Postacute Care Transfer Policy at First Coast Service Options, (A-04-00-02162)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Implementation of Medicare's Postacute Care Transfer Policy at First Coast Service Options," (A-04-00-02162)
February 9, 2001
Complete
Text of Report is available in PDF format (1.29 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare's transfer policy calls for inpatient payment rates to be reduced when prospective payment system (PPS) hospitals
discharge beneficiaries in 10 specified diagnosis related groups (DRG) to certain postacute care settings such as skilled
nursing facilities or home health agencies. This final report points out that First Coast Service Options, a fiscal intermediary,
properly reduced payments when hospitals correctly coded transfers to postacute care settings. However, overpayments resulted
when the hospitals erroneously coded the claims as discharges instead of transfers. We estimate, based on a statistical
sample, that hospitals serviced by First Coast Service Options were reimbursed $2,042,060 in excessive DRG payments as
a result of these erroneous codings for the year ending September 30, 1999. In addition to financial adjustments, we recommended
certain controls be put in place to assure that the transfer/discharge information on Medicare claims are correctly coded.
The Health Care Financing Administration concurred with our recommendations.